Important Account Pricing and Terms
Interest Rates and
Interest Charges
Annual
Percentage
Rate (APR) for
Purchases

APR for Balance
Transfers

Platinum Plus
MasterCard®1

Cash Rewards
MasterCard®1

9.99%

to
17.99%
This APR will be based on your
creditworthiness and will vary
with the market based on the
Prime Rate.2,3

10.99%

to 17.99%
This APR will be based on your
creditworthiness and will vary
with the market based on the
Prime Rate.2,3

to 17.99%
This APR will be based on your
creditworthiness and will vary with
the market based on the Prime
Rate.2,3

9.90%

APR for Balance
Transfers for qualified applicants
based on creditworthiness made
within ninety (90) days from the
anniversary date of account
opening.4 This APR will be non-

9.90%

APR for Balance
Transfers for qualified applicants
based on creditworthiness made
within ninety (90) days from the
anniversary date of account
opening.4 This APR will be non-

9.90%

variable. Otherwise, 17.99%
APR will apply for Balance
Transfers. This APR will be nonvariable.

variable. Otherwise, 17.99%
APR will apply for Balance
Transfers. This APR will be nonvariable.

variable. Otherwise, 17.99%
APR will apply for Balance
Transfers. This APR will be nonvariable.

9.99% to 17.99%

10.99%

11.99%

APR
for Balance Transfers made
ninety-one (91) days or more
from the anniversary date of
account opening. This APR will
be
based
on
your
creditworthiness and will vary
with the market based on the
Prime Rate.2,3
APR for Cash
Advances
How to Avoid
Paying Interest
on Purchases
Minimum Interest
Charge
For Credit Card
Tips from the
Consumer
Financial
Protection Bureau
Fees
Annual Fee

World Rewards
MasterCard®1

to
17.99%
APR for Balance Transfers made
ninety-one (91) days or more from
the anniversary date of account
opening. This APR will be based
on your creditworthiness and will
vary with the market based on the
Prime Rate.2,3

11.99%

APR for Balance
Transfers for qualified applicants
based on creditworthiness made
within ninety (90) days from the
anniversary date of account
opening.4 This APR will be non-

to 17.99%
APR for Balance Transfers made
ninety-one (91) days or more
from the anniversary date of
account opening. This APR will
be
based
on
your
creditworthiness and will vary
with the market based on the
Prime Rate.2,3

17.99%
Your due date is at least 25 days after the close of each billing cycle. We will not charge you interest on
purchases if you pay your entire balance by the due date each month. We will begin charging you interest
on cash advances and balance transfers on the transaction date.
None
To learn more about factors to consider when applying for or using a credit card, visit the
website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

Transaction Fees
Foreign Transaction Fee
Cash Advance Fee
Balance Transfer Fee
Penalty Fees
Late Payment Fee
Returned Payment Fee
Over-the-Credit-Limit Fee
Penalty APR

None
Up to 1% of each transaction in U.S. dollars
None
None
Up to $25
Up to $20
None
None

The minimum monthly payment is 2% of your total new balance, or $30, whichever is greater. See your Credit Card Agreement for more details.
How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).” See your Credit Card
Agreement for more details.
EECU (Revision Date: 3-20-20)

Page 1 of 2

Billing Rights: Information on your rights to dispute transactions, and how to exercise those rights, is provided in your Credit Card Agreement.
The information about the costs of the credit cards described herein is accurate as of 4/1/2020. This information may change after that date. To
find out what may have changed, call 1-800-333-9934 or write to EECU at PO Box 1777, Fort Worth, TX 76101-1777.

SECURITY: BY AGREEING TO THE TERMS OF THE CREDIT CARD AGREEMENT, OR BY USING THE CARD OR
THE ACCOUNT, YOU UNDERSTAND AND ACKNOWLEDGE THAT (1) YOU WILL BE GRANTING EECU A
CONSENSUAL SECURITY INTEREST IN ALL INDIVIDUAL AND JOINT ACCOUNTS YOU HAVE WITH EECU, NOW
AND IN THE FUTURE, TO SECURE REPAYMENT OF CREDIT EXTENSIONS MADE UNDER THE CREDIT CARD
AGREEMENT AND (2) THE GRANTING OF SUCH SECURITY INTEREST IS A CONDITION FOR THE ISSUANCE OF
ANY CARD WHICH YOU MAY USE, DIRECTLY OR INDIRECTLY, TO OBTAIN EXTENSIONS OF CREDIT FROM EECU.
IF YOU ARE IN DEFAULT UNDER THE TERMS OF THE CREDIT CARD AGREEMENT, YOU AUTHORIZE EECU TO
TAKE MONEY FROM ANY OF YOUR NON-EXEMPT ACCOUNTS AND APPLY IT TO WHAT YOU OWE EECU. IF YOU
DON’T AGREE TO THE CONSENSUAL SECURITY INTEREST, YOU SHOULD NOT USE THE CARD OR THE
ACCOUNT.
You further understand and acknowledge that shares and deposits in an Individual Retirement Account or in any other
account that would lose special tax treatment under state or federal law if given as security are not subject to the security
interest you are giving.
Any term, condition or provision in this credit transaction, or in any other agreement, document or disclosure, contrary to
the Military Lending Act (MLA) are void for the period(s) during which you are entitled to the protections of the MLA. The
other terms, conditions and provisions will remain in effect.
U.S. Patriot Act: Federal law requires us to obtain, verify, and record information that identifies each person who opens
an account in order to help the government fight the funding of terrorism and money laundering activities. To process the
application and open an account, we will ask for your name, street address, date of birth and other identifying information,
and we may also ask for identifying documents.
EECU issues your credit card under the Credit Card Agreement and Disclosure Statement (“Credit Card Agreement”) for your MasterCard® Account.
Additional State Specific Disclosures: Texas

law governs the Credit Card Agreement and your Account without regard to

conflicts of law.
California residents: Applicants: 1) may, after credit approval, use the credit card account up to its credit limit; 2) may be liable for amounts extended under the plan to any joint applicant.
As required by law, you are hereby notified that a negative credit report reflecting on your credit record may be submitted to a credit reporting agency if you fail to fulfill the terms of your
credit obligations.
Maryland residents: You have the right under Maryland Commercial Law Section 12-510 to receive an answer to a written inquiry concerning the status of your account. Finance charges
will be imposed on the outstanding balances from month to month in amounts or at rates not in excess of those permitted by law.
New Jersey residents: Because certain provisions of this agreement are subject to applicable law, they may be void, unenforceable or inapplicable in some jurisdictions. None of these
provisions, however, are void, unenforceable or inapplicable in New Jersey.
New York and Vermont residents: At any time, we may obtain your credit reports, for any legitimate purpose associated with the account or the application or request for an Account,
including but not limited to reviewing, modifying, renewing and collecting on your account. On your request, you will be informed if such a report was ordered. If so, you will be given the
name and address of the consumer reporting agency furnishing the report.
Ohio residents: Ohio anti-discrimination laws require creditors to make credit equally available to all credit worthy customers, and that credit reporting agencies maintain separate histories
on each individual upon request. The Ohio Civil Rights Commission administers compliance with this law.
Oregon residents: Service charges not in excess of those permitted by law will be charged on the outstanding balance from month to month. You may pay more than the minimum payment
due, up to your entire outstanding balance, at any time.
Rhode Island residents: A credit report may be requested in connection with a credit card application.
Vermont residents: Notice to Co-signer – You signature on the note means that you are equally liable for repayment of this loan. If the borrower does not pay, the lender has equal right
to collect from you.
Married Wisconsin residents: Your signature confirms that this loan obligation is being incurred in the interest of your marriage or family. No provision of a marital property agreement, a
unilateral statement under Section 766.59 of the Wisconsin Statutes or a court decree under Section 766.70 of the Wisconsin Statues adversely affects the interest of the creditor unless
the creditor, prior to the time the credit is granted, is furnished a copy of the agreement, statement or decree or has actual knowledge of the adverse provision when the obligation to the
creditor is incurred. The creditor may give notice of the opening of any credit account to the applicant’s spouse. IF YOU ARE A MARRIED WISCONSIN RESIDENT, CREDIT EXTENDED
UNDER THIS ACCOUNT WILL BE INCURRED IN THE INTEREST OF YOUR MARRIAGE OR FAMILY.

_____________________________________________________________________________________________________________________________________________
1
The World Rewards MasterCard® and the Cash Rewards MasterCard® offer enhanced rewards programs and are available as an option to qualified applicants
only, based on creditworthiness. Details regarding card benefits will be provided to you. Certain restrictions apply and card benefits are subject to change. All
extensions of credit are subject to credit approval and EECU lending policies. You must be at least 18 years of age and a U.S. citizen or permanent resident.
Membership in EECU is required. This limited time offer is subject to change at any time without notice.
2
Subject to any applicable Introductory or Promotional Rate, after your Account has been open for at least one year, your APR for purchases and balance transfers
may also change within the range stated above based on your creditworthiness.
3
Prime Rate: Variable APRs are based on the 3.25% Prime Rate as of 4/1/2020. The Prime Rate is subject to change.
4
EECU will not process any balance transfer requests that are from any other account or loan that EECU has issued. Additional terms and conditions apply.

EECU (Revision Date: 3-20-20)

Page 2 of 2

EECU
PO Box 1777, Fort Worth, TX 76101-1777

CREDIT CARD AGREEMENT AND DISCLOSURE
STATEMENT FOR MY MASTERCARD® ACCOUNT
BY USING THE CARD OR THE ACCOUNT, I AGREE
TO ALL OF THE TERMS AND CONDITIONS, AND
PROMISE TO PERFORM ALL THE OBLIGATIONS,
REQUIREMENTS, AND DUTIES CONTAINED IN THIS
AGREEMENT, AND I ACKNOWLEDGE RECEIPT OF A
COPY OF THIS AGREEMENT AND ANY APPLICABLE
SUPPLEMENTAL OR ADDITIONAL DISCLOSURE.
TERMS USED IN THIS AGREEMENT: This Credit Card
Agreement and Disclosure Statement covers my
Platinum
Plus
MasterCard®,
World
Rewards
®
MasterCard , or Cash Rewards MasterCard® credit card
account (“Account”) as applicable (“Agreement”). In this
Agreement, the words “I,” “me,” “my,” “we,” “us,” “our,”
“Applicant,” and “Cardholder” mean any person who signs
this Agreement, is issued a Card, or uses the Card or the
Account. “You,” “your,” and “Credit Union” mean the credit
union named above. The “Card” means any credit card
issued to me or those designated by me under the terms
of this Agreement. “Use of the Card” means any
procedure used by me, or someone authorized by me, to
make a purchase or an advance whether or not the
purchase or advance is evidenced by a signed written
document. “Unauthorized use” means the use of my Card
by a person, other than me, who does not have actual,
implied, or apparent authority for such use, and from
which I receive no benefit. In this Agreement, any plural
terms shall be deemed singular and any singular terms
shall be deemed plural when context and construction so
require.
COMMUNICATIONS: TO HELP ENSURE QUALITY
MEMBER SERVICE, I CONSENT
TO THE
MONITORING AND RECORDING OF TELEPHONE
CONVERSATIONS AND OTHER COMMUNICATIONS
BETWEEN YOU AND ME.
SUBJECT TO YOUR PRIVACY POLICY, I AGREE
THAT YOU MAY CONTACT ME FOR ANY PURPOSE
AT ANY ADDRESS (ELECTRONIC OR OTHERWISE)
OR TELEPHONE NUMBER I HAVE PROVIDED TO
YOU, DIRECTLY OR INDIRECTLY, INCLUDING ANY
MAILING OR PHYSICAL ADDRESS, E-MAIL
ADDRESS, TELEPHONE OR CELLULAR TELEPHONE
NUMBER, AND THROUGH ANY OTHER THEN
AVAILABLE COMMUNICATION CHANNEL SUCH AS
TEXT MESSAGING AND VOICE OVER INTERNET
PROTOCOL (VoIP) SERVICE. VOICE AND DATA
CHARGES IMPOSED BY MY COMMUNICATIONS
CARRIER ARE MY RESPONSIBILITY. FOR ANY
COMMUNICATION, INLCUDING TELEPHONE OR
CELLUAR CALL, YOU PLACE OR OTHERWISE
DIRECT TO ME, I AGREE THAT THOSE CALLS MAY
BE AUTOMATICALLY DIALED AND/OR USE PRERECORDED/ARTIFICIAL VOICE MESSAGES.

IF I PROVIDE YOU AN E-MAIL ADDRESS, SUBJECT
TO YOUR PRIVACY POLICY, YOU MAY SEND EMAIL
MESSAGES
TO
ME,
INCLUDING
THOSE
CONCERNING
CURRENT
AND
ADDITIONAL
MEMBER BENEFITS AVAILABLE TO ME.
THIS AGREEMENT SHALL CONSTITUTE MY
EXPRESS WRITTEN CONSENT, AS MAY BE
REQUIRED BY ANY COMMUNICATIONS RELATED
STATUTE, RULE OR REGULATION INCLUDING, BUT
NOT LIMITED TO, THE TELEPHONE CONSUMER
PROTECTION ACT, AS AMENDED.
EXTENSION OF CREDIT: If my application is approved,
the Credit Union may, in its discretion, establish an
Account in my name and cause one or more Cards to be
issued to me or those designated by me. In such event, I
authorize you to pay for my Account all items reflecting
credit purchases, balance transfers, and cash advances
obtained through use of the Card.
TERMINATION. You reserve the right to refuse to honor
any request for credit, to reduce my credit limit or
terminate my account at any time using your sole
discretion, based on changes in the economy, the Credit
Union's financial condition, my creditworthiness or for any
other reason not prohibited by law.
JOINT APPLICANT LIABILITY: If this Agreement is
executed by more than one person, then notwithstanding
any provision of this Agreement designating responsibility
to any one Cardholder for remitting payments, we each
shall be jointly and individually liable to you for all charges
made to the Account, including applicable fees. In
addition, we agree that each of us designates the other
as agent for the purpose of making purchases extended
under this Agreement and each use of our Account shall
be an extension of credit to all. Notice to one of us shall
constitute notice to all. Any joint Cardholder may remove
him or herself from responsibility for future purchases at
any time by notifying the Credit Union in writing.
However, removal from the Account does not release us
from any liability already incurred.
CONVENIENCE CHECKS: You may, at your discretion,
issue checks to me which may be used for any purpose
other than making a payment for credit to my Account. By
signing such checks, I authorize you to pay the item for
the amount indicated and post such amount as a cash
advance to my Account. You do not have to pay any item
which would cause the outstanding balance in my
Account to exceed my credit limit. Charges that apply in
connection with the use of Convenience Checks are
reflected in this Agreement.
STOP PAYMENT ORDERS: I agree that your rules for
stopping payment on ordinary checks apply to stopping
payment on my Convenience Checks. If I ask you to stop
payment or renew a stop payment order, I will be charged
for each order or renewal of each order the amount then
being charged under all of your checking accounts for
stopping payment of an item.

_______________________________________________________________________________________________________________________________________
EECU (Revision Date: 3-20-20)

Page 1

OTHERS USING THE ACCOUNT: If I allow anyone else
to use my Card, I will be liable for all credit extended to
such persons. I promise to pay for all purchases, balance
transfers, and cash advances made by anyone whom I
authorize to use my Card, whether or not I notify you that
the person I authorize will be using it. If someone else is
authorized to use my Card and I want to end that person’s
privilege, I must notify you in writing, and if that person
has a Card, I must return the Card with my written notice
for it to be effective.
CREDIT LIMITS: I promise that payments you make for
my Account resulting from use of the Card will at no time
cause the outstanding balance of my Account to exceed
my credit limit as established by you or as adjusted from
time to time at your discretion. If I exceed my credit limit,
you can still charge me for all purchases and advances
without giving up any of your rights. If I write a
Convenience Check that causes me to exceed my credit
limit, you are under no obligation to pay such check, and
it may be returned to the payee unpaid at your option.
PROMISE TO PAY: I promise to pay you or your
designee in U.S. dollars for (a) all purchases, cash
advances, and balance transfers made by me or anyone
whom I authorize to use the Card or Account; (b)
INTEREST CHARGES and other charges or fees; (c)
collection costs and attorney’s fees as permitted by
applicable law, and any costs incurred in the recovery of
the Card; (d) credit in excess of my credit limit that you
may extend to me; and (e) other charges added to my
Account under the terms of this Agreement or any other
agreement with you. At the end of each monthly billing
cycle for which I have a balance on my Account, I will be
furnished with a periodic statement showing (i) the
“Previous Balance” (the outstanding balance in the
Account at the beginning of the billing cycle), (ii) the
amount of all cash advances, purchases, balance
transfers, Late Charges, Annual Fees, INTEREST
CHARGES, and other charges or fees posted to my
Account during the billing cycle, (iii) the amount of all
payments and credits posted to my Account during the
billing cycle, and (iv) the “New Balance” which is the sum
of (i) and (ii) minus (iii).
I agree to pay on or before the “Payment Due Date”
shown on the monthly periodic statement the entire New
Balance or a Minimum Payment Due of 2% of the New
Balance or $30.00, whichever is greater, plus any amount
in excess of the credit limit established by you and any
past due minimum payments. If the New Balance is
$30.00 or less, I agree to pay it in full. I may make extra
payments in advance of the due date without a penalty,
and I may repay any funds advanced, credit extended, or
amount outstanding at any time without a penalty for early
payment. Regardless of the amount of any extra payment
during a given month, a monthly payment will be required
the following month if a balance remains in my Account.
Minimum Payment Warning: If I make only the
Minimum Payment each period, I will pay more in
interest and it will take me longer to pay off my
balance.

Any payment submitted by me in the form of a check or
other paper document may be converted to an electronic
transaction through procedures established by the
National Automated Clearing House Association. If this
occurs, the original check or other document that I send
to you will not be returned, but a copy may be available if
requested.
You may, at your discretion, withhold a portion of
available credit on my Account up to the amount of any
payments in order to assure that the check or other
payment instrument is honored. I may not make a
payment on my Account using any credit or loan account
(including without limitation, any instrument drawn of my
Account) held at Credit Union, and you may refuse any
such payments in your sole discretion.
FEES: Late Payment Fee: The greater of 5% of the
Minimum Payment Due or $5, with a maximum fee of $25,
but if the Minimum Payment Due for any statement period
is ever less than $5, then the Late Payment Fee for that
statement period will not exceed an amount equal to the
Minimum Payment Due.
Returned Payment Fee: $20 or an amount equal to the
Minimum Payment Due, whichever is less.
Foreign Transaction Fee: Up to 1% of the transaction
amount in U.S. dollars.
Convenience Check Fees: Copy of paid check: $4.00;
Stop Payment on Check: $20. Fees will be assessed at
the time they are incurred.
COST OF CREDIT: I will pay an INTEREST CHARGE for
all advances made against my Account. INTEREST
CHARGES for cash advances and balance transfers
begin to accrue on the transaction date. New purchases
will not incur an INTEREST CHARGE on the date they
are posted to my Account if I have paid the Account in full
by the Payment Due Date shown on my previous monthly
statement, or if there was no previous balance.
My Account may, as applicable, feature an Introductory or
Promotional ANNUAL PERCENTAGE RATE for certain
transaction or balance transfer categories. If I am a
qualified applicant and my Account features an
Introductory or Promotional Rate, the Introductory or
Promotional Rate will be non-variable. If I am not a
qualified applicant and/or my Account does not feature an
Introductory or Promotional Rate, I will not qualify for the
Introductory or Promotional Rate. After an Introductory or
Promotional Rate period, if any, or if an Introductory or
Promotional Rate is not applicable when my Account is
opened, the ANNUAL PERCENTAGE RATE for
purchases and balance transfers is variable and may
increase. The ANNUAL PERCENTAGE RATE for
purchases and balance transfers is based on an index
(the “Index”), which is the Prime Rate as published in the
Money Rates section of The Wall Street Journal on the
last business day of each month and is subject to change
monthly. Any change in the Index will be effective on the

_______________________________________________________________________________________________________________________________________
EECU (Revision Date: 3-20-20)

Page 2

first day of the billing cycle following the date of the
change. An increase in the Index will result in an increase
in the periodic rate, which in turn, may result in higher
payments. If The Wall Street Journal does not publish the
Prime Rate, or if it changes the definition of the Prime
Rate, you may, in your sole discretion, substitute another
index.
INTRODUCTORY OR PROMOTIONAL RATE – IF AND
AS APPLICABLE: If I am a qualified applicant and my
Account features an Introductory or Promotional Rate,
balance transfers made within ninety (90) days of the
anniversary date of the opening of my Account, the daily
periodic rate for balance transfers will be non-variable at
.027123%, which corresponds to an ANNUAL
PERCENTAGE RATE of 9.90%. Otherwise, the daily
periodic rate for balance transfers will be non-variable at
.049288%, which corresponds to an ANNUAL
PERCENTAGE RATE of 17.99%. Balance transfers may
only be made from other companies or financial
institutions to which I owe a balance. I may not request a
balance transfer on existing obligations I owe to you. If I
request a balance transfer that would cause my Account
to exceed its credit limit, you may at your option, (a) post
the entire balance transfer requested to my Account, (b)
post only a portion of the balance transfer requested up
to the amount of credit available under my Account, or (c)
refuse to process the entire balance transfer requested.
For all Accounts, the daily periodic rate for balance
transfers, made ninety-one (91) days or more from the
anniversary date of the opening my Account, will be
based on my creditworthiness and will vary with the
market based on the Prime Rate as more specifically
herein provided.
I understand that I should not transfer any disputed
purchase or other charge amount, as I may lose my
dispute rights. I also understand that I should continue to
make payments on my other account until I have
confirmed this balance transfer has been received. Once
approved, you may pay the amount of the balance
transfer directly to that issuer. The available credit limit
for my new card will be reduced by the total amount of the
transfers, including any applicable fees, you approve. I
further understand that balance transfers are made
available at your discretion.
Subject to any Introductory or Promotional Rate, for the
Platinum Plus MasterCard® Account, the ANNUAL
PERCENTAGE RATE for purchases and balance
transfers in any given billing cycle will be the Index plus a
margin rate ranging from 6.74% - 14.74%, depending on
my creditworthiness and may be adjusted from time to
time based on my credit standing. The specific purchases
and balance transfers ANNUAL PERCENTAGE RATE
and margin rate for the Platinum Plus MasterCard®
Account will be set forth on the Additional Disclosure that
will be provided to me after my application has been
approved.
Subject to any applicable Introductory or Promotional
Rate, for the Platinum Plus MasterCard® Account, in
addition to the variable-rate aspects of my Account, the

ANNUAL PERCENTAGE RATE for purchases and
balance transfers is also based on certain
creditworthiness criteria and may be adjusted from time
to time based on my credit standing. After my Platinum
Plus MasterCard® Account has been open for at least one
year, you may review my creditworthiness from time to
time, including when I request a credit limit increase, and
adjust my daily periodic rate for purchases and balance
transfers within a range of .027370% to .049288% (9.99%
to 17.99% ANNUAL PERCENTAGE RATE) by notifying
me in accordance with applicable law. If my ANNUAL
PERCENTAGE RATE is changed based on my
creditworthiness, my margin rate will be adjusted.
Increases in my ANNUAL PERCENTAGE RATE due to
changes in my margin rate will remain in effect for at least
six months and may remain in effect indefinitely. Any
change in my ANNUAL PERCENTAGE RATE due to
changes in my margin rate will only apply to purchase and
balance transfer advances made after the effective date
of the change if the change is an increase in my ANNUAL
PERCENTAGE RATE, and will apply to both existing
balances of purchases and balance transfers and new
purchase and balance transfer advances made after the
effective date of the change if the change is a decrease in
my ANNUAL PERCENTAGE RATE. Purchase and
balance transfer balances existing before the effective
date of a rate increase due to a change in my margin rate
will remain subject to the ANNUAL PERCENTAGE RATE
in effect before the date of the change.
Subject to any applicable Introductory or Promotional
Rate, for the World Rewards MasterCard® Account, the
ANNUAL PERCENTAGE RATE for purchases and
balance transfers in any given billing cycle will be the
Index plus a margin rate ranging from 7.74% - 14.74%,
depending on my creditworthiness and may be adjusted
from time to time based on my credit standing. The
specific purchases and balance transfers ANNUAL
PERCENTAGE RATE and margin rate for the World
Rewards MasterCard® Account will be set forth on the
Additional Disclosure that will be provided to me after my
application has been approved.
Subject to any applicable Introductory or Promotional
Rate, for the World Rewards MasterCard® Account, in
addition to the variable-rate aspects of my Account, the
ANNUAL PERCENTAGE RATE for purchases and
balance transfers is also based on certain
creditworthiness criteria and may be adjusted from time
to time based on my credit standing. After my World
Rewards MasterCard® Account has been open for at least
one year, you may review my creditworthiness from time
to time, including when I request a credit limit increase,
and adjust my daily periodic rate for purchases and
balance transfers within a range of .030110% to
.049288% (10.99% to 17.99% ANNUAL PERCENTAGE
RATE) by notifying me in accordance with applicable law.
If my ANNUAL PERCENTAGE RATE is changed based
on my creditworthiness, my margin rate will be adjusted.
Increases in my ANNUAL PERCENTAGE RATE due to
changes in my margin rate will remain in effect for at least
six months and may remain in effect indefinitely. Any
change in my ANNUAL PERCENTAGE RATE due to

_______________________________________________________________________________________________________________________________________
EECU (Revision Date: 3-20-20)

Page 3

changes in my margin rate will only apply to purchase and
balance transfer advances made after the effective date
of the change if the change is an increase in my ANNUAL
PERCENTAGE RATE, and will apply to both existing
balances of purchases and balance transfers and new
purchase and balance transfer advances made after the
effective date of the change if the change is a decrease in
my ANNUAL PERCENTAGE RATE. Purchase and
balance transfer balances existing before the effective
date of a rate increase due to a change in my margin rate
will remain subject to the ANNUAL PERCENTAGE RATE
in effect before the date of the change.
Subject to any applicable Introductory and Promotional
Rates, for the Cash Rewards MasterCard® Account, the
ANNUAL PERCENTAGE RATE for purchases and
balance transfers in any given billing cycle will be the
Index plus a margin rate ranging from 8.74% - 14.74%,
depending on my creditworthiness and may be adjusted
from time to time based on my credit standing. The
specific purchases and balance transfers ANNUAL
PERCENTAGE RATE and margin rate for the Cash
Rewards MasterCard® Account will be set forth on the
Additional Disclosure that will be provided to me after my
application has been approved.
Subject to any applicable Introductory or Promotional
Rate, for the Cash Rewards MasterCard® Account, in
addition to the variable-rate aspects of my Account, the
ANNUAL PERCENTAGE RATE for purchases and
balance transfers is also based on certain
creditworthiness criteria and may be adjusted from time
to time based on my credit standing. After my Cash
Rewards MasterCard® Account has been open for at least
one year, you may review my creditworthiness from time
to time, including when I request a credit limit increase,
and adjust my daily periodic rate for purchases and
balance transfers within a range of .032849% to
.049288% (11.99% to 17.99% ANNUAL PERCENTAGE
RATE) by notifying me in accordance with applicable law.
If my ANNUAL PERCENTAGE RATE is changed based
on my creditworthiness, my margin rate will be adjusted.
Increases in my ANNUAL PERCENTAGE RATE due to
changes in my margin rate will remain in effect for at least
six months and may remain in effect indefinitely. Any
change in my ANNUAL PERCENTAGE RATE due to
changes in my margin rate will only apply to purchase and
balance transfer advances made after the effective date
of the change if the change is an increase in my ANNUAL
PERCENTAGE RATE, and will apply to both existing
balances of purchases and balance transfers and new
purchase and balance transfer advances made after the
effective date of the change if the change is a decrease in
my ANNUAL PERCENTAGE RATE. Purchase and
balance transfer balances existing before the effective
date of a rate increase due to a change in my margin rate
will remain subject to the ANNUAL PERCENTAGE RATE
in effect before the date of the change.

For all Accounts, the daily periodic rate for purchases and
balance transfers will never be greater than .049288%,
which corresponds to an ANNUAL PERCENTAGE RATE
of 17.99%.
Cash advance, balance transfer, and convenience check
transactions do not qualify for any applicable rewards, nor
do unauthorized transactions or transactions deemed to
be illegal.
The information about the costs of the credit cards
described herein is accurate as of April 1, 2020. This
information may change after that date. To find out what
may have changed, call 1-800-333-9934 or write to EECU
at PO Box 1777, Fort Worth, TX 76101-1777.
A portion of the INTEREST CHARGE is figured by
applying the applicable daily periodic rate to the Average
Daily Balance of my Account for each feature category,
including certain current transactions. Feature categories
include purchases, balance transfers, and cash
advances. The Average Daily Balance is arrived at by
taking the beginning balance of each feature category
each day and adding any new transactions to the balance,
except if I have paid my Account in full by the Payment
Due Date shown on the previous monthly statement or
there is no previous balance, new purchases are not
added to the purchases feature category balance.
Balance transfers may be shown on my statement in the
Promotions feature category. When determining
balances, you may combine feature category balances
that have the same periodic rate and other INTEREST
CHARGE terms. You then subtract any payments or
credits and unpaid INTEREST CHARGES allocated to
the feature category balance for the day. This gives you
the daily balance for the feature category. The daily
balances for each feature category are then added
together and divided by the number of days in the billing
cycle. The result is the Average Daily Balance for each
feature category. The periodic INTEREST CHARGE is
determined by multiplying each feature category Average
Daily Balance by the number of days in the billing cycle
and applying the applicable daily periodic rate to the
product. The Total Interest for each statement period is
the sum of the periodic INTEREST CHARGES for each
feature category. The Total Fees for each statement
period is the sum of any non-periodic INTEREST
CHARGES plus any other fees charged.
No additional INTEREST CHARGES will be imposed on
new purchases shown on my statement if the New
Balance shown on the statement is paid in full by the
Payment Due Date reflected on the statement. The
Payment Due Date is not less than 25 days from the billing
cycle closing date shown on my statement.

Cash advances are always subject to non-variable daily
periodic rate of .049288%, which corresponds to an
ANNUAL PERCENTAGE RATE of 17.99%.

_______________________________________________________________________________________________________________________________________
EECU (Revision Date: 3-20-20)

Page 4

Cash Rewards MasterCard® Accounts ONLY
CASH BACK REWARDS TERMS AND CONDITIONS
FOR THE CASH REWARDS MASTERCARD®
Cash Rewards MasterCard® Accounts earn a 1.5% cash
back reward credit on net purchases. No minimum
purchase requirements or maximum limits apply. The
cash back reward is paid each calendar quarter in the
form of an automatic credit to the Account. Rewards
have no cash value, cannot be converted to cash, and
cannot be transferred. Cash advance, balance transfer,
and convenience check transactions do not earn cash
back rewards, nor do unauthorized transactions or
transactions deemed to be illegal. Transactions that
involve the purchase of financial instruments or funds
transfers such as money orders, prepaid cards, and wire
transfers do not earn cash back rewards, nor do finance
charges, fees, and credit insurance premiums charged to
the account. If merchandise is returned or purchase credit
is otherwise issued to the Account, the Credit Union will
make a corresponding adjustment that will reduce the
cash back rewards balance.

I may also write to the processing center at:
Credit Card Center
P.O. Box 815909
Dallas, TX 75381-5909
Although I may write to notify you of unauthorized use,
calling you immediately at the telephone number above
is the best way to keep my possible losses down.
Under MasterCard’s zero liability policy, I will not be
liable for any unauthorized use of my MasterCard® once
I notify you orally or in writing of the loss, theft, or possible
unauthorized use and if I meet the following conditions:
(i) I have exercised reasonable care in safeguarding the
Card from risk of loss or theft, and (ii) upon becoming
aware of such loss or theft, promptly report the loss or
theft to you.
I will not be liable for any unauthorized use that occurs
after I notify you. I may, however, be liable for
unauthorized use that occurs before my notice to you. In
any case, my liability will not exceed $50.00.
I will be liable for all transactions that I authorize.

The Account must remain open and in good standing to
earn and receive cash back rewards. Cash back reward
credit may be delayed or forfeited if payment is received
late. If the Account is closed or terminated before a cash
back reward is paid, any pending reward credit will be
forfeited. If the Account is in default as defined in this
Agreement or if the Account or any cardholder is not in
good standing as determined by the Credit Union in its
sole discretion, the Credit Union may suspend or
terminate participation in the program and any unpaid
cash back reward may be forfeited.
The cash back rewards program is open to U.S. residents
only and is void where prohibited by law. Account holders
are responsible for any federal, state, and local taxes that
may apply. The program is subject to the Credit Union’s
policies and procedures and applicable law, and any
interpretation of these terms or any other aspect of the
program shall be in the Credit Union’s sole and absolute
discretion. The Credit Union may suspend or terminate
the cash back rewards program or the participation of any
account or cardholder in the program at any time and for
any reason, subject to any notice required by applicable
law. Payment of cash back rewards may be delayed due
to circumstances beyond the Credit Union’s control. The
Credit Union may add to, change, or delete these Terms
and Conditions at any time by notifying the primary
cardholder or posting such changes on the Credit Union
or the GoToMyCard.com website. Use of the Card after
notification or posting of such changes constitutes
acceptance of any and all changes.
LIABILITY FOR UNAUTHORIZED USE: I may be liable
for the unauthorized use of my Card. If I notice the loss or
theft of my Card or a possible unauthorized use of my
Card, I should call the Credit Union’s processing center
immediately at:
(800) 442-4757

CREDITING OF PAYMENTS: The Credit Union does not
charge for payments made by standard mail service or
any other standard payment methods approved by the
Credit Union. If a fee is charged for any expedited
payment service the Credit Union offers, that fee will be
disclosed to me at the time I request the service. All
payments made on my Account at the address
designated for payment on the monthly periodic
statement or by any other payment method you accept
will generally be credited to my Account on the date of
receipt. If the date of receipt for a mailed payment is not
a business day, my payment may not be credited until the
first business day following receipt. Payments received in
person by one of your branch employees before the close
of business at the branch office will receive same-day
credit. IF PAYMENT IS MADE AT ANY LOCATION
OTHER THAN THE DESIGNATED ADDRESS ON THE
PERIODIC STATEMENT OR BY ANY OTHER
PAYMENT METHOD APPROVED BY YOU, CREDIT
FOR SUCH PAYMENT MAY BE DELAYED UP TO FIVE
DAYS. My Minimum Payment Due will be applied first to
collection costs, then to any Late Payment Fees, then to
any INTEREST CHARGE due, and then to the unpaid
principal balance. Amounts paid in excess of the Minimum
Payment Due will be applied first to the balances with the
highest interest rate. Interest paid or agreed to be paid
shall not exceed the maximum amount permissible under
the applicable law, and in any contingency whatsoever, if
you shall receive anything of value deemed interest under
applicable law which would exceed the maximum amount
permissible under applicable law, the excess interest shall
be applied to the reduction of the unpaid principal amount
or refunded to me.
LATE PAYMENT FEE: If a payment is ten (10) days or
more past due, I will be charged a Late Payment Fee.
ANNUAL FEE: None.

_______________________________________________________________________________________________________________________________________
EECU (Revision Date: 3-20-20)

Page 5

RETURNED PAYMENT FEE: You will charge me a
Returned Payment Fee each time I pay you with a check
or other form of payment that is returned unpaid. You will
charge me this fee the first time any payment is returned
unpaid, even if it is paid upon resubmission.

CONSENSUAL SECURITY INTEREST
IN MY ACCOUNTS
I SPECIFICALLY GRANT YOU A CONSENSUAL
SECURITY INTEREST IN ALL INDIVIDUAL AND
JOINT ACCOUNTS I HAVE WITH YOU, NOW AND
IN THE FUTURE, TO SECURE REPAYMENT OF
CREDIT EXTENSIONS MADE UNDER THIS
AGREEMENT.
I
ACKNOWLEDGE
AND
UNDERSTAND THAT THE GRANTING OF THIS
SECURITY INTEREST IS A CONDITION FOR THE
ISSUANCE OF ANY CARD WHICH I MAY USE,
DIRECTLY OR INDIRECTLY, TO OBTAIN
EXTENSIONS OF CREDIT UNDER THIS
AGREEMENT. IF I AM IN DEFAULT UNDER THE
TERMS OF THIS AGREEMENT, I AUTHORIZE
YOU TO TAKE MONEY FROM ANY OF MY NONEXEMPT ACCOUNTS AND APPLY IT TO WHAT I
OWE YOU. IF I DO NOT AGREE TO THE
CONSENSUAL SECURITY INTEREST, I SHOULD
NOT USE THE CARD OR THE ACCOUNT. THIS
PROVISION IS A MATERIAL INDUCEMENT FOR
THE OPENING AND MAINTAINING OF MY
ACCOUNT.
Shares and deposits in an Individual Retirement Account
or any other account that would lose special tax treatment
under state or federal law if given as security are not
subject to the security interest I am giving.
ADDITIONAL SECURITY: IF I HAVE OTHER LOANS
WITH YOU, NOW OR IN THE FUTURE, COLLATERAL
SECURING THOSE LOANS MAY ALSO SECURE MY
OBLIGATIONS UNDER THIS AGREEMENT.
I
UNDERSTAND THAT I SHOULD READ ANY SECURITY
AGREEMENT I SIGN IN ORDER TO DETERMINE IF
THE
COLLATERAL
ALSO
SECURES
MY
OBLIGATIONS UNDER THIS AGREEMENT AND ANY
OTHER AGREEMENTS I HAVE WITH YOU.
DEFAULT: I will be in default: (1) if I fail to make any
payment on time; (2) if I fail to keep any promises I have
made under this or any other agreement I have with you;
(3) if I become insolvent or if I am the subject of an order
of relief under Title 11 of the U.S. Code (Bankruptcy); (4)
if anyone tries, by legal process, to take any of my money
maintained with you; (5) if I have given you false or
inaccurate information in obtaining my Card or my
Account; (6) if my Card is canceled or if surrender is
demanded by you; (7) if I die; or (8) if you reasonably
believe that I am unable or unwilling to repay or perform
my obligations to you.

ACCELERATION: If I am in default, without notice to me,
you may accelerate my debt and call any amounts I owe
immediately due and payable, plus accrued INTEREST
CHARGES, which shall continue to accrue until the entire
amount is paid. I expressly waive any right to notice of
your intention to accelerate and notice that my debt has
been accelerated.
TERMINATION AND CHANGES: I may terminate this
Agreement, by written notice, as to future advances at any
time. You can terminate this Agreement at any time
subject to such notice as may be required by applicable
law. Termination by either party shall not affect my
obligation to repay any payments made for my Account
resulting from use of the Card or my Account as well as
INTEREST CHARGES and other related charges. YOU
MAY ADD TO, CHANGE, OR DELETE THE TERMS OF
THIS AGREEMENT, INCLUDING THE PERIODIC
RATE, AT ANY TIME SUBJECT TO SUCH NOTICE AS
MAY BE REQUIRED BY APPLICABLE LAW. YOU
ALSO RESERVE THE RIGHT TO CHANGE THE
BENEFIT FEATURES ASSOCIATED WITH MY CARD
AT ANY TIME AND FROM TIME TO TIME.
NOTIFICATION ADDRESS FOR INFORMATION
REPORTED TO CONSUMER REPORTING AGENCIES:
You may report the status and payment history of my
Account to credit reporting agencies each month. If I
believe that the information you have reported is
inaccurate or incomplete, I understand that I should notify
you in writing at the address shown at the beginning of
this Agreement. I will include my name, address, home
telephone number and Account number in any
correspondence for this purpose.
CREDIT INVESTIGATION: I understand and agree that
you may investigate my employment and credit history
and obtain credit reports for credit applications and for
updates, renewals or extensions of the credit granted.
Upon request, you will inform me if a report has been
obtained and will give me the name and address of the
agency that furnished the report. I ALSO AGREE THAT
YOU MAY OBTAIN AND USE CREDIT REPORTS AND
OTHER INFORMATION ABOUT ME THAT YOU HAVE
OBTAINED IN A LAWFUL MANNER CONSISTENT
WITH YOUR PRIVACY POLICIES, FOR SUBSEQUENT
SOLICITATIONS OR FOR ANY OTHER LAWFUL
PURPOSE. I also authorize you to report information
concerning my Account to credit bureaus and to anyone
else you believe in good faith has a lawful and legitimate
need for such information.
YOUR CREDIT CARD ACCOUNT AND YOUR MOBILE
PHONE OR OTHER MOBILE DEVICES: Smart phones,
some tablets or other mobile and wearable devices (a
"mobile device") can download, store, and/or access
account information, for instance through a mobile wallet,
that may enable you to use the mobile device to purchase
goods or services, make a balance transfer, or make a
cash advance. In certain instances, those transactions will
replicate using my Card or Account to make a transaction
on the internet. In other instances, the mobile device will
act as if it were a credit card itself. Applications that

_______________________________________________________________________________________________________________________________________
EECU (Revision Date: 3-20-20)

Page 6

enable my mobile device will have unique terms
governing those applications. Read them carefully.
Transactions made through those applications are
governed by this Agreement.
When my Card and/or Account information is accessible
by my mobile device, it is important that I treat my mobile
device with the same care I would my Card. For example,
I should secure my mobile device against unauthorized
access. If I give someone my mobile device that can be
the same as giving that person my Card and/or access to
my Account.

•

as otherwise provided in this Agreement.

Entire Agreement and Separation of Unlawful Provisions.
This Agreement is the entire agreement between you and
me concerning my Card and the Account. Each provision
of this Agreement must be considered part of the total
Agreement and cannot in any way be severed from it.
However, if any provision of this Agreement is finally
determined to be void or unenforceable under any law,
rule, or regulation, all other provisions of this Agreement
will remain valid and enforceable.

To the extent that I use a third party/mobile device to
make a credit transaction on my Account, or load
information about my Account onto any such device, I
need to be aware that you do not control the device and
cannot, and do not, guarantee the performance of the
device or third party.

Governing Law. I understand that this Agreement is
performable in Tarrant County, Texas, and the validity,
construction, and enforcement of this Agreement shall be
governed by applicable federal law and the laws of the
State of Texas.

Further, I may incur third party fees related to engaging in
a transaction (such as mobile carrier data or messaging
charges). Credit transactions made through a third
party/mobile device may involve electronic transmission
of information related to me or my Account across
wireless or computer networks. Third parties, such as
merchants, card association networks, mobile carriers,
mobile wallet operators, and software application
providers may use and receive information in connection
with a credit transaction. Third parties may also receive
information about your mobile device when you use it to
make a credit transaction.

No Warranty. You do not warrant any merchandise or
services purchased by me with the Card or Account. All
purchases and cash advances are extended at the option
of the merchant or cash-advancing financial institution
and you are not responsible for the refusal of any
merchant or financial institution to honor my Card or
Account.

You may, at any time, partially or fully restrict my ability to
make credit transactions through a third party/mobile
device.

Costs of Collection. I agree to pay all reasonable costs of
collection, including court costs and attorney’s fees, and
any costs incurred in the recovery of the Card.

ADDITIONAL PROVISIONS:
Our Liability for Failure to Complete Transactions. If you
do not complete a transaction pursuant to any request,
and/or in the correct amount, you may be liable for my
losses or damages. However, there are some exceptions.
You will not be liable, for instance:
• if through no fault of yours, I do not have
adequate funds available to complete the transfer;
• if circumstances beyond your control (such as
fire, flood, terrorist attack, national emergency, or
computer or communication failure) prevent the
completion of the transaction, despite reasonable
precautions you have taken;
• if access to my Card and/or Account has been
blocked after I reported my Card lost or stolen;
• if there is a hold on my Card and/or Account for
any reason;
• if my funds are subject to legal process or other
encumbrance restricting their use;
• if my authorization(s) terminates by operation of
law;
• if a computer system or mobile device was not
working properly and I knew about the problem when
I initiated the transaction;
• if you have reason to believe that the requested
transaction is not authorized; or

Ownership of Card. The Card remains your property at all
times, and I agree to immediately surrender the Card
upon demand.

Irregular Payments. You can accept late payments or
partial payments, or checks or money orders marked
“payment in full” without losing any of your rights under
this Agreement.
Rights Preserved. You can also waive or delay enforcing
any of your rights under this Agreement any number of
times without losing them.
Wavier of Presentment, Demand and Notice. I expressly
waive presentment for payment, demand, protest, and
notice of protest and dishonor of same.
Address Change. I agree to give you prompt notice of any
change in my name, physical address, mailing address,
email address, telephone number, cellular telephone
number, and place of employment.
Inability to Pay. I promise not to obtain an advance or
credit extension under this Agreement if I know there is a
reasonable probability that I will be unable to repay my
obligation according to the terms of the credit extension. I
promise to inform you of any new information which
relates to my ability to repay my obligation.
Submission of True and Correct Information. I promise not
to submit false or inaccurate information or willfully
conceal information regarding my creditworthiness, credit
standing, or credit capacity.

_______________________________________________________________________________________________________________________________________
EECU (Revision Date: 3-20-20)

Page 7

Limitations and Account Closure. You may, with or
without written notice to me, close my Account, reduce
my credit limit, suspend and/or cancel my Account
privileges at any time. I nevertheless remain responsible
to pay the balance according to the terms of this
Agreement and any changes under it.
Change in Terms. Use of the Card or my Account,
after having been provided with a notice or posting
of a change in terms (as required by law), shall
constitute my unconditional agreement to be bound
by any such changed terms.
Illegal Transactions. I may not use my Card for any illegal
transaction. I agree that you may decline to process any
transaction which you believe in good faith to be for an
illegal purpose or which may involve activities, you believe
may violate a law or pose significant risk to you or your
members. I agree that you will not be liable for declining
to process any such transaction. If you do process any
transaction which ultimately is determined to have been
for an illegal purpose, I agree that I will remain liable to
you under this Agreement for any such transaction
notwithstanding its illegal nature. I agree that any illegal
use of the Card or Account will be deemed an act of
default under this Agreement. I further agree to waive any
right to take legal action against you for my illegal use of
the Card and to indemnify and hold you and MasterCard
International, Incorporated harmless from and against
any lawsuits, other legal action, or liability that results
directly or indirectly from such illegal use.
International Transactions. If I effect an international
transaction with my MasterCard® Card. MasterCard
International will convert the charge into a U.S. dollar
amount. MasterCard International will use its currency
conversion procedure, which is disclosed to institutions
that issue MasterCard® cards. Currently, the currency
conversion rate used by MasterCard International to
determine the transaction amount in U.S. dollars for such
transactions is generally either a government-mandated
exchange rate or a wholesale exchange rate selected by
MasterCard International for the applicable currency on
the day the transaction is processed, which rate may differ
from the applicable rate on the date the transaction
occurred or when the transaction is posted to my Account.
I will be charged a Foreign Transaction Fee on all
international purchase, cash disbursement, and Account
credit transactions, even if the transaction is charged in
U.S. dollars. There is no grace period within which to
repay international transactions in order to avoid the
Foreign Transaction Fee.
Authorizations. You and your agents are not responsible
if anyone refuses to honor my Card, my Account or a
Convenience Check, or if authorization for a particular
transaction is not given. The number of transactions I
make in one day may be limited, and the limit per day may
vary. Although I may have credit available under my
Account, you may be unable to authorize credit for a
particular transaction. These reasons include, but are not
limited to, default, suspected fraudulent or unlawful
activity, internet gambling, or any indication of increased

risk related to the transaction. For security reasons, you
cannot explain the details of how the authorization system
works. If my Account is over the credit limit or delinquent,
authorization of credit for transactions may be declined.
You are not responsible for anything purchased with my
Account, the Card or a Convenience Check, except as
expressly required by law. I must return goods I
purchased with the Card or Account to the merchant and
not you. Transactions at some merchants (such as hotels,
car rental companies, restaurants, and gas stations) may
result in temporary authorizations for amounts greater
than the actual purchase amount, which will make less
credit available on my Account for several days.
My Non-Binding Instructions. Unless required by law, or
you have agreed otherwise in writing, you are not
required to act upon any consent or instruction I give you
via telephone, facsimile transmission, electronic
transmission, or voice mail. You may, however, in your
sole discretion, act upon the consent or instruction I give
you via telephone, facsimile transmission, electronic
transmission, or voice mail and that any such consent or
instruction will, for all purposes, be binding upon me to
the fullest extent permitted by law as though I had
provided you an original writing signed by me.
WAIVER OF TRIAL BY JURY. UNLESS PROHIBITED
BY LAW, AND TO THE FULLEST EXTENT PERMITED
BY LAW, I WAIVE ANY RIGHT TO TRIAL BY JURY
IN ANY LEGAL PROCEEDING INVOLVING THIS
AGREEMENT, THE CARD AND/OR MY ACCOUNT.
THIS PROVISION IS A MATERIAL INDUCEMENT FOR
THE OPENING AND MAINTAINING OF MY ACCOUNT.
WAIVER OF CLASS ACTION RIGHTS. UNLESS
PROHIBITED BY LAW, AND TO THE FULLEST
EXTENT PERMITED BY LAW, I (I) WAIVE AND
RELEASE ANY AND ALL CLASS ACTION RIGHTS I
MAY HAVE, NOW AND IN THE FUTURE, AGAINST
YOU
(AND
YOUR
DIRECTORS,
OFFICERS,
MEMBERS, EMPLOYEES, REPRESENTATIVES OR
AGENTS, AND THEIR RESPECTIVE EXECUTORS,
LEGAL REPRESENTATIVES, HEIRS, SUCCESSORS,
AND ASSIGNS) AND (II) AGREE THAT I WILL NOT
PARTICIPATE, DIRECTLY OR INDIRECTLY, UNDER
ANY CIRCUMSTANCES, IN ANY TYPE OF CLASS
ACTION CLAIM, DEMAND, ACTION, CAUSE OF
ACTION, OR SUCH OTHER SIMILAR LEGAL ACTION,
REGARDLESS OF NAME, OR ASSIST ANY PERSON
OR ORGANIZATION, IN THE PARTICIPATION OF A
CLASS ACTION CLAIM, DEMAND, ACTION, CAUSE
OF ACTION, LAWSUIT, OR SUCH OTHER SIMILAR
LEGAL ACTION, REGARDLESS OF NAME, AGAINST
YOU (OR YOUR DIRECTORS, OFFICERS, MEMBERS,
EMPLOYEES, REPRESENTATIVES OR AGENTS, AND
THEIR
RESPECTIVE
EXECUTORS,
LEGAL
REPRESENTATIVES, HEIRS, SUCCESSORS, AND
ASSIGNS) FOR ANY REASON. BUT FOR MY WAIVER
AND RELEASE OF ALL OF MY CLASS ACTION
RIGHTS, IF ANY, YOU WOULD NOT HAVE OFFERED
ME MEMBERSHIP IN THE CREDIT UNION AND
WOULD NOT HAVE OFFERED ME FINANCIAL
PRODUCTS AND SERVICES, INCLUDING THE

_______________________________________________________________________________________________________________________________________
EECU (Revision Date: 3-20-20)

Page 8

ACCOUNT.
THIS PROVISION IS A MATERIAL
INDUCEMENT
FOR
THE
OPENING
AND
MAINTAINING OF MY ACCOUNT.

Force Majeure. In no event will you be liable for, or be
considered to be in breach of this Agreement because of,
any default or delay in performance of any of your
obligations occasioned by occurrences, causes or
contingencies considered “force majeure” including, but
not limited to, breach or default by a supplier or vendor;
strike; riot; lock out; labor dispute; inability to procure
materials, labor or equipment; emergency; disruption or
failure of public utilities, transportation, communication or
information systems; fire, ice or snow storm, flood
earthquake, tornado or other closures due to storms or
other natural disasters or acts of God; destruction of
facilities; epidemic or other catastrophe; invasion, war,
revolution, insurrection or acts of terrorism; public health
crises; injunction; demand of any government authority;
or any other occurrence, cause, or contingency beyond
your control.
Electronic Instruments. I agree that any and all
agreements, notices, forms, documents, instruments,
orders, instructions and other writings which you retain
relating to my Account, may, at your option, be kept in
any number of formats including, but not limited to,
paper, imaged, digital, electronic, scanned, filmed or as
technology otherwise permits, now and in the future, and
that any such formats of any such agreements, notices,
forms, documents, instruments, orders, instructions, and
other writings shall be considered an original for all of
your purposes and shall satisfy any record retention
requirements, contractually and as otherwise required by
law. If I request that you provide me with an original or
copy of an agreement, notice, form, document,
instrument, instruction, order or other writing pertaining
to my Account, I understand and agree that any one of
the above-referenced formats are acceptable and shall
satisfy the contractual or legal obligation, if any, you owe
to me. I understand and agree that you may, at your
option, accept, treat or otherwise rely on a copy of my
signature, or a stamp or facsimile signature, as an
original for all of your purposes, including the legal
enforcement of this Agreement and other applicable
agreements and other documents, without the necessity
of obtaining or producing an original thereof.
Investigations. I agree to unconditionally cooperate with
you in the investigation of any loss, including providing
you with an affidavit(s) containing whatever reasonable
information you require concerning my Account, the
transaction, and the circumstances surrounding the loss.
I will also complete a report(s) (e.g., police report) with
the appropriate law enforcement authorities describing
the criminal activities and acts related to my Account and
the claim of loss. I further agree to cooperate with the
law enforcement authorities in the arrest and prosecution
of anyone associated with the loss. I understand and
agree that my right to continue to use my Account is
conditioned upon my unconditional cooperation with you
and the appropriate law enforcement authorities.

Personal Identification Number (PIN). You may issue me
a Personal Identification Number (PIN) for use with my
Card. This PIN is confidential and should not be
disclosed to anyone. If a PIN is issued, I may use my
PIN and my Card to access my Account, and all sums
advanced will be added to my Account balance. In the
event a use of my PIN constitutes an Electronic Funds
Transfer, the terms and conditions of my Electronic
Funds Transfer Agreement may affect my rights. I should
not write my PIN on my Card or keep my PIN in my purse
or wallet or anywhere else where someone might find it
and associate it with my Card. If applicable, I should not
use an ATM unless it appears safe to do so. I should not
key in my PIN if someone is looking and I should be sure
to take my Card and receipt when I am done. Owners
of ATMs that you do not own may charge fees in
addition to any fees disclosed in this Agreement.
This is not a fee charged by the Credit Union;
however, any such fee will be added to my Account.
The party charging the fee is required to provide
appropriate disclosures to me with regard to any
such fees.
Skip Payments (If Applicable). At your option, a
minimum payment may be waived during certain billing
cycles. If such a waiver occurs, INTEREST CHARGES
will continue to apply to the Account during the skip
payment billing cycle. Beginning with the billing cycle
following the skip payment, all provisions of this
Agreement shall apply.
Assignment of Claims. If I dispute a charge with a
merchant, you may credit my Account for all or part of the
disputed charge. If you do so, I hereby assign and
transfer to you all rights and claims (excluding tort claims)
against the merchant. I agree that I will not pursue any
claim against the merchant for the credited amount. And,
I must cooperate in good faith with you if you decide to
pursue any such claim against the merchant.
Survival. The provisions of this Agreement which, by
their terms, are intended to survive termination or closure
of my Account, shall survive any such termination or
closure.
Limitations on Account and Services for Members Who
Reside in Non-US Countries or Territories. The Credit
Union may limit, refuse, close or terminate any account or
service if: (1) the Credit Union deems it necessary due to
legal/regulatory requirements of a foreign country that are
not directly applicable to US residents; or (2) the Credit
Union deems it to be in the Credit Union’s best interests
to not provide accounts or services due to potential
exposures or obligations under non-US laws, rules or
regulations.
Transactions Involving Cryptocurrency or Other Digital
Asset are Prohibited. Use of the Card or the Account to
purchase cryptocurrency (e.g., Bitcoin) or other digital
asset is expressly prohibited. In the unlikely event the
purchase of cryptocurrency or other digital asset is not
blocked, I am nevertheless responsible for the payment
of any such charge(s). I AGREE TO HOLD YOU
HARMLESS FROM ANY AND ALL LOSES
ASSOCIATED WITH SUCH PURCHASE.

_______________________________________________________________________________________________________________________________________
EECU (Revision Date: 3-20-20)

Page 9

--------------------------------XXXX---------------------------------Security and Card Block. Certain purchases and cash
advances require authorization prior to completion of the
transaction. In some cases, I may be asked to provide
identification to complete a transaction. If your system is
not working, you may not be able to authorize a
transaction, even though I have sufficient credit
available. Also, for security reasons, you may block the
use of the Card and/or the Account in certain countries
and geographic regions. The Credit Union will have no
liability to me or others if any of these events occur.
Additional Benefits/Card Enhancements. The Credit
Union may from time to time offer additional services to
my Account, such as travel accident insurance, purchase
rewards or rebates at no additional cost to me. I
understand that the Credit Union is not obligated to
continue or to offer such services and may withdraw or
change them at any time, without notice. If these benefits
are withdrawn prior to any accrued use by me, the Credit
Union will have no obligation to provide the benefit or
enhancement, or any other compensation or
consideration.
Assignment of Account. I may not transfer or assign my
Account or Card to any other person. The Credit Union
may assign or transfer this Account, my Account
balance, and this Agreement to another person, who will
have all of your rights hereunder.
Binding Effect. This Agreement is binding on my heirs
and legal representatives. If there are joint obligors or
authorized users for this credit plan, each of us will have
the right to use the Account to obtain loans pursuant to
the terms hereof. Any one obligor’s elections,
transactions and directions to the Credit Union shall be
binding upon all obligors. Each of us will be liable for all
obligations owing on the Account whether borrowed by
me or otherwise and whether within or beyond the credit
limit. My liability will be joint and several. Further each
of us is responsible for all amounts borrowed by any
authorized user(s). Authorized users and other users
may also be required to repay the amount owed for
charges they make; however, I remain, at all times,
primarily responsible for all amounts owed.
U.S. Patriot Act: To help the government fight the
funding of terrorism and money laundering
activities, Federal law requires that all financial
institutions obtain, verify, and record information
that identifies each person who opens an account.
What this means to me: When I open an account, you
will ask for my name, address, date of birth and other
information that will allow you to identify me. You
may also ask to see my driver’s license or other
identifying documents.

(IF AND AS APPLICABLE)
MILITARY
LENDING
ACT
DISCLOSURE
&
ADDENDUM – Active Military Members and Their
Dependents.
IMPORTANT:
The following terms govern and
replace any contrary terms in any agreements I have
with the Credit Union IF (a) at the time I initiate the
credit transaction, I am an active member of the military
or I am a dependent of an active member of the military
(as those terms and defined in the Military Lending Act,
10 U.S.C. 987 and its implementing regulations) (“MLA”);
and (b) my credit transaction is unsecured or secured by
personal property that I did not purchase with the
proceeds of the credit transaction.
Such credit
transaction shall be called a “Covered Transaction.”
A. Military Lending Act Disclosure: FEDERAL LAW
PROVIDES
IMPORTANT
PROTECTIONS
TO
MEMBERS OF THE ARMED FORCES AND THEIR
DEPENDENTS RELATING TO EXTENSIONS OF
CONSUMER CREDIT. IN GENERAL, THE COST OF
CONSUMER CREDIT TO A MEMBER OF THE ARMED
FORCES AND HIS OR HER DEPENDENT MAY NOT
EXCEED AN ANNUAL PERCENTAGE RATE OF 36
PERCENT.
THIS RATE MUST INCLUDE, AS
APPLICABLE TO THE CREDIT TRANSACTION OR
ACCOUNT: THE COSTS ASSOCIATED WITH CREDIT
INSURANCE PREMIUMS; FEES FOR ANCILLARY
PRODUCTS SOLD IN CONNECTION WITH THE
CREDIT TRANSACTION; ANY APPLICATION FEE
CHARGED (OTHER THAN CERTAIN APPLICATION
FEES FOR SPECIFIED CREDIT TRANSACTIONS OR
ACCOUNTS); AND ANY PARTICIPATION FEES
CHARGED (OTHER THAN CERTAIN PARTICIPATION
FEES FOR A CREDIT CARD ACCOUNT). TO RECEIVE
THE DISCLOSURES ORALLY, PLEASE CALL US
TOLL FREE AT 1-844-595-7532.
B. Military Annual Percentage Rate (MAPR)*
The MAPR does not exceed 36% using Department of
Defense rules. For the Annual Percentage Rate on my
credit transaction, see my promissory note (as
applicable), my credit card agreement (as applicable),
and disclosures.
*The MAPR is calculated pursuant to a separate set
of rules adopted by the Department of Defense.
These rules are not the same as the rules for
calculating the Annual Percentage Rate (APR) for
consumer loans under the Truth in Lending Act and
Regulation Z. The MAPR includes certain fees and
charges excluded under the Truth in Lending Act. In
the event my credit transaction relates to a credit
card account, certain reasonable bona fide fees may
be excluded from the MAPR. The MAPR is governed
by 32 CFR §232, whereas the APR is governed by 12
CFR §1026.
C. If I or any of my dependents are expressly covered
and entitled to the protections provided by the Military
Lending Act, then the following applies:

_______________________________________________________________________________________________________________________________________
EECU (Revision Date: 3-20-20)

Page 10

(i)
Lien
on
Accounts
and
CrossCollateralization: This credit transaction will not be
secured by a consensual lien on shares or deposits in any
of my accounts unless I specifically agree to establish an
account in connection with this credit transaction
(“Secured Account”). Only funds deposited into the
Secured Account after the credit transaction is made will
secure this credit transaction or advance. Any crosscollateralization provision contained in my credit
transaction or membership documents will not apply to
this credit transaction or the Secured Account.
Exception:
However, with regard to this credit
transaction, we still reserve our statutory lien rights and
any resulting rights to set-off or administrative freeze
under federal or state law, which gives us the right to apply
the sums in the Secured Account or any other account(s)
I have with you to satisfy my obligations under this credit
transaction. Any contract terms in my credit transaction,
security, or membership agreements that contradict the
above with regard to this credit transaction are hereby
void with regard to the Covered Transaction.
(ii) Arbitration and Notice:
This credit
transaction is not subject to mandatory arbitration or legal
notice provisions and therefore any contract terms in my
credit transaction, security, or membership agreements
that contradict the above with regard to this credit
transaction are hereby void with regard to Covered
Transaction.

If I think there is an error on my statement, I understand
that I must write to the Credit Union’s processor at:
Cardmember Services
P.O. Box 815909
Dallas, TX 75381-5909
In my letter, I must give you the following information:
• Account information: My name and account
number.
• Dollar amount: The dollar amount of the
suspected error.
• Description of problem: If I think there is an error
on my statement, I will describe what I believe is
wrong and why I believe it is a mistake.
I must contact you:
• Within 60 days after the error appeared on my
statement.
• At least 3 business days before an automated
payment is scheduled, if I want to stop payment
on the amount I think is wrong.
I must notify you of any potential errors in writing. I may
call you, but if I do you are not required to investigate any
potential errors and I may have to pay the amount in
question.
What Will Happen After You Receive My Letter:

(iii)
Waivers: This credit transaction is not
subject to the waiver of any right to legal recourse under
any state or federal law, including the Servicemembers
Civil Relief Act and therefore any contract terms in my
credit transaction, security, or membership agreements
that contradict the above with regard to this credit
transaction are hereby void with regard to Covered
Transaction.

When you receive my letter, you must do two things:
1. Within 30 days of receiving my letter, you must
tell me that you received my letter. You will
also tell me if you have already corrected the
error.
2. Within 90 days of receiving my letter, you must
either correct the error or explain to me why
you believe my statement is correct.

(iv) Continued Effectiveness:
Any term,
condition or provision in this credit transaction, or in any
other agreement, document or disclosure, contrary to the
MLA are void for the period(s) during which I am entitled
to the protections of the MLA. The other terms,
conditions and provisions will remain in effect.

While you investigate whether or not there has been an
error:
• You cannot try to collect the amount in question,
or report me as delinquent on that amount.
• The charge in question may remain on my
statement, and you may continue to charge me
interest on that amount.
• While I do not have to pay the amount in question,
I am responsible for the remainder of my balance.
• You can apply any unpaid amount against my
credit limit.

(v) Payment Obligation: I am required to make
all payments pursuant to the terms set forth in my other
credit transaction or account agreements and
disclosures which are incorporated herein by reference.
------------------------------XXXX-------------------------------------

MY BILLING RIGHTS
I Understand That I Should Keep this Document for
Future Use
This notice tells me about my rights and your
responsibilities under the Fair Credit Billing Act.
What to Do if I Find a Mistake on My Statement:

After you finish your investigation, one of two things will
happen:
• If you made a mistake: I will not have to pay the
amount in question or any interest or other fees
related to that amount.
• If you do not believe there was a mistake: I will
have to pay the amount in question along with
applicable interest and fees. You will send me a
statement of the amount I owe and the date
payment is due. You may then report me as
delinquent if I do not pay the amount you think I
owe.

_______________________________________________________________________________________________________________________________________
EECU (Revision Date: 3-20-20)

Page 11

If I receive your explanation but still believe my
statement is wrong, I must write to you within 10
days telling you that I still refuse to pay. If I do so,
you cannot report me as delinquent without also
reporting that I am questioning my statement.
You must tell me the name of anyone to whom
you reported me as delinquent, and you must let
those organizations know when the matter has
been settled between us.
If you do not follow all of the rules above, I do not
have to pay the first $50 of the amount I question
even if my bill is correct.
My Rights if I am Dissatisfied with My Credit Card
Purchases:
If I am dissatisfied with the goods or services that I have
purchased with my credit card, and I have tried in good
faith to correct the problem with the merchant, I may have
the right not to pay the remaining amount due on the
purchase. To use this right, all of the following must be
true:
1. The purchase must have been made in my home state
or within 100 miles of my current mailing address, and the
purchase price must have been more than $50. (Note:
Neither of these are necessary if my purchase was based
on an advertisement you mailed to me, or if you own the
company that sold me the goods or services.)
2. I must have used my credit card for the purchase.
Purchases made with cash advances from an ATM or with
a check that accesses my credit card account do not
qualify.
3. I must not yet have fully paid for the purchase. If all of
the criteria above are met and I am still dissatisfied with
the purchase, I must contact you in writing at:
Cardmember Services
P.O. Box 815909
Dallas, TX 75381-5909
While you investigate, the same rules apply to the
disputed amount as discussed above. After you finish
your investigation, you will tell me your decision. At that
point, if you think I owe an amount and I do not pay, you
may report me as delinquent.
The Special Rules for credit card purchases do not apply
to purchases made with convenience checks or balance
transfer checks.
CUSTOMER SERVICE: 1-800-442-4757 – 24 hours a
day / 7 days a week. (Callers should have their Account
information available.)

_______________________________________________________________________________________________________________________________________
EECU (Revision Date: 3-20-20)

Page 12

